                           System Review Report on the
    Nuclear Regulatory Commission’s Office of Inspector General Audit Organization
                                    (No. 12-19)

The National Archives and Records Administration Office of Inspector General (OIG)
performed a peer review of the audit function of the United States Nuclear Regulatory
Commission's (USNRC's) OIG. The report can be found on the USNRC OIG's webpage at
http://www.nrc.gov/insp-gen/auditpro/peer-review.html.
